OIG Investigative Reports Press Release Akron OH., 04/02/2013 - Four Akron residents indicted for conspiracy involving Student financial aid and fake G.E.D. Certificates
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
NORTHERN DISTRICT of OHIO
NEWS
Four Akron residents indicted for conspiracy involving Student financial aid and fake G.E.D. Certificates
FOR IMMEDIATE RELEASE
April 03, 2013
Four Akron residents have been indicted for their roles in a conspiracy in which some used fake G.E.D. certificates to enroll in the University of Akron and fraudulently obtain more than $104,000 in financial aid, said Steven M. Dettelbach, United States Attorney for the Northern District of Ohio.
Lori A. Martin, age 46, Raheem J. Martin, age 40, Teresa K. Scott, age 34, and Tina M. Mileca, age 34, are charged with conspiracy to commit mail fraud and wire fraud.
"These defendants cut corners to get money to which they were not entitled," Dettelbach said. "Our office will continue to prosecute those who defraud the federal government."
The defendants conspired to obtain federal student financial aid money to which the recipients were neither eligible nor entitled by creating and submitting fake Official Transcripts falsely reporting General Educational Development test results and the awarding of G.E.D. certificates for persons who had not earned and did not have such certificates, according to the indictment.
The defendants submitted these fake documents to the University of Akron to gain admission to the university and, thereby, access to the federal funds.  The defendants used the grant and loan money they received to pay for living expenses and other personal expenditures, as well as costs associated with attending the University of Akron, according to the indictment.
The conspiracy took place from August 2006 through September 2011, according to the indictment.
Lori Martin created fake Official Transcripts that reported test results and the awarding of G.E.D. certificates for Raheem Martin, Scott and Mileca. She also helped them complete online applications to the University of Akron and student aid, according to the indictment.
Scott and Mileca each paid $200 each to Lori Martin for the fake G.E.D. Official Transcript, according to the indictment.
Lori and Raheem Martin obtained more than $76,100 in Pell Grants and federally insured loans from these activities. Scott received more than $23,800 in Pell Grants and federally insured loans while Mileca obtained at least $4,600, according to the indictment.
As a result of the conspiracy, the Department of Education was defrauded and sustained a total loss of at least $104,611, according to the indictment.
This case was investigated by Special Agents of the Department of Education, Office of Inspector General, located in Ann Arbor, Michigan, and the University of Akron Police Department, with the assistance of the Akron Police Department.
If convicted, the defendants' sentences will be determined by the Court after review of factors unique to this case, including the defendants' prior criminal record, if any, the defendants' roles in the offense, and the characteristics of the violation.  In all cases, the sentence will not exceed the statutory maximum and in most cases it will be less than the maximum.
The case is being prosecuted by Assistant United States Attorney Rebecca Lutzko.
An indictment is only a charge and is not evidence of guilt.  A defendant is entitled to a fair trial in which it will be the government's burden to prove guilt beyond a reasonable doubt.
Top
Printable view
Last Modified: 04/04/2013
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov